September 28, 2009

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

AREA VICE PRESIDENTS

SUBJECT: Audit Report – Management of Delivery Point Sequencing Percentage
         Increases for City Delivery – Nationwide Review
         (Report Number DR-AR-09-010)

This report presents the results of our self-initiated nationwide audit of the Management
of Delivery Point Sequencing (DPS) Percentage Increases for City Delivery (Project
Number 09XG005DR000).1 Increasing the DPS percentage for city delivery is a top
priority for the U.S. Postal Service and an important cost reduction strategy for delivery
operations because it reduces the amount of mail employees must manually sort. Our
objective was to determine whether management had adequately implemented
processes and key oversight controls to increase and sustain city delivery DPS
percentages and reduce operating costs. See Appendix A for additional information
about this audit.

Conclusion

The Postal Service areas’ national DPS percentage on average increased from 82
percent in fiscal year (FY) 2007 to 87 percent in FY 2008 and 90.7 percent as of the
third quarter of FY 2009. However, management has not always implemented
processes or oversight controls to further increase its DPS percentage and reduce
operating costs. As a result of these conditions, some clerks and carriers will continue
to unnecessarily spend time manually sorting and casing letter mail.

Management of City Delivery DPS Percentages – Nationwide

While management has established processes2 — including oversight controls — to
increase and sustain city delivery DPS percentages and reduce operating costs,
opportunities exist for officials to improve established processes for:

1
  DPS is a process to sort bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-
travel (LOT). Mail is taken directly to the street, with no casing time in the office. DPS percentage results are for city
delivery only. We plan to perform a separate review of management of DPS for rural delivery.
2
  In FY 2005, the Vice President, Delivery and Retail, issued a letter stating that all delivery and retail units to
officially implement Delivery Standard Operating Procedures (SOP) beginning in FY 2006 for managing all delivery.
and retail functions. In addition, in FY 2008, officials issued the Morning Standard Operating Procedures (AMSOP) II
Guidebook, Field Operations Standardization Development, which re-emphasize the SOP.
Management of Delivery Point Sequencing                                          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

           Updating addresses in databases in a timely manner
           Monitoring Multiple Delivery Point Records (M-Records)
           Resolving mis-sent, mis-sorted, and mis-sequenced (3M) data issues
           Handling non-DPS mail

Officials indicated they did not correct these process issues because completing other
administrative duties and preparing the mail for delivery were higher priorities. We also
determined that variations in oversight were due to an inadequate number of functional
staff representatives and no accountability for the DPS Improvement Teams for
resolving DPS issues. See Appendix B for our detailed analysis of this topic.

The Postal Service incurred additional labor costs because clerks and city carriers3 had
to manually case letter mail. We estimate the Postal Service unnecessarily incurred
unrecoverable supported questioned costs of over $177 million for FYs 2007 and 2008,
and may incur over $88 million by 2010, if it does not meet target improvements. See
Appendix C for our detail analysis of the monetary impact.

We recommend the Acting Vice President, Delivery and Post Office Operations:

1. Issue a memorandum to all area and district officials reemphasizing establishment
   and operation of oversight Delivery Point Sequencing (DPS) Improvement Teams.
   The teams will have all functional staff representation as a critical element in
   monitoring operations vital to increasing the city delivery DPS percentage.

Management’s Comments

The Acting Vice President, Delivery and Post Office Operations, agreed with the finding
and recommendation. The Acting Vice President stated that, although established
processes and controls exist to ensure successful increases in DPS percentages, there
remains opportunity for improvement in those districts performing below the national
average. The Acting Vice President plans to concentrate future efforts in those lower
performing districts. In September 2009, management plans to issue a memorandum to
all Area Vice Presidents and District Managers reemphasizing the importance of
establishing and maintaining cross-functional DPS Improvement Teams.
Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective action
should resolve issues identified in the report.

We recommend the Area Vice Presidents direct District Managers to:

3
    Function 4 clerks in delivery units, Function 2B city carriers.




                                                                2
Management of Delivery Point Sequencing                                       DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review


2. Require district officials to prioritize and execute tasks, such as updating address
   databases, monitoring and removing M-records, identifying and resolving sortation
   issues, and handling non-Delivery Point Sequencing mail in their delivery units.

3. Develop and execute an action plan to mitigate low city Delivery Point Sequencing
   percentages in delivery units.

4. Ensure accountability of Delivery Point Sequencing (DPS) Improvement Team
   members for completing assigned tasks to increase and sustain city delivery DPS
   percentages and reduce operating costs.

Management’s Comments

The Area Vice Presidents in eight locations agreed with the findings and the associated
recommendations. However, the New York Metro Area Vice President agreed to
recommendations 2 and 4, but disagreed with recommendation 3.

       In response to recommendation 2, the nine Area Vice Presidents have initiated
        plans to issue (or re-issue) to supervisors and managers, procedures or
        instructions that reemphasize the importance of prioritizing and executing the
        tasks necessary to increase DPS percentages. The target date for this is the end
        of October 2009. Area Vice Presidents stated they would include procedures for
        updating address databases with established goal and targets, monitoring and
        removing M-records through increased reviews, identifying and resolving
        sortation issues to improve automation efficiency, and handling non-DPS mail.

       In response to recommendation 3, eight of the nine Area Vice Presidents will
        initiate action plans by the end of October 2009 to mitigate low city DPS
        percentages in delivery units and concentrate on those units performing below
        established targets. The New York Metro Area Vice President disagreed with the
        finding and recommendation stating the OIG site selected for review was not
        representative of an average unit in the New York District. He also said the
        district has a lower DPS percentage goal due to business address hygiene
        issues like improperly addressed mailpieces.

       In response to recommendation 4, the nine Area Vice Presidents will issue (or re-
        issue) to supervisors and managers, procedures or instructions that reemphasize
        the importance of DPS Improvement Team members’ accountability for
        completing assigned tasks. This would increase and sustain city delivery DPS
        percentages and reduce operating costs. The target date for this is the end of
        October 2009.

Area Vice Presidents in the Capital Metro, Southwest, and Western locations agreed
with the monetary impact and the Eastern, Southeast, Great Lakes, Northeast, Pacific,




                                            3
Management of Delivery Point Sequencing                                        DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

and New York Metro officials disagreed. Area Vice Presidents expressed concern with
components used in the monetary impact calculations such as overtime labor rates,
labor rate escalation factors, rate of improvement percentages based on historical DPS
performance, mail volume data, and national performance assessment goals.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. While the New York Metro Area disagreed with establishing an action plan, they
had taken — or planned to take — actions to mitigate low city DPS percentages in
delivery units. Specifically, headquarters officials and a district team had some success
improving address hygiene issues at New York District stations with large numbers of
business addresses. In addition, management plans to continue reducing address
hygiene issues by implementing procedures to ensure management routinely updates
the Delivery Sortation Management Automated Research Tool (DSMART) and by
establishing a DPS team with functional representatives to review and resolve issues.
Management’s corrective actions should resolve the issues in the report.

The OIG used a conservative cost savings methodology. We used overtime rates and
escalation factors to provide a more accurate projection of the overtime rate. We also
factored in the areas’ DPS improvement ratios in FY 2009 by projecting the rate of DPS
improvement based on a proven historical improvement rate. Our model also factored
in the rate of volume decline based on valid history available at the time of the review.
Finally, we did not use the reduced DPS target for the New York District because our
review at the Grand Central Station indicated that management could have resolved
address hygiene issues.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations




                                            4
Management of Delivery Point Sequencing         DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review


Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    James W. Kiser
    Bill Harris




                                            5
Management of Delivery Point Sequencing                                                                  DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service implemented DPS approximately 16 years ago and it changed the
way employees process and deliver mail. The goal of DPS is to process and sort bar-
coded letter mail at the plants and units into the carrier’s LOT so the carrier can take the
mail directly to the street, with no casing or pull-down4 time in the office. This process
reduces operating costs, improves accuracy and speed of delivery, and contributes to
improved customer satisfaction.

To sort mail to the carrier’s LOT, sort programs are created and updated as part of the
Sort Program System (SPS). Next, officials transfer sort program information to the
mail processing equipment (MPE), which consists of Delivery Barcode Sorters (DBCS)
and Carrier Sequence Barcode Sorters (CSBCS).5 When the MPE cannot sort all of the
letter mail to the carrier’s LOT, unit officials receive it for clerks and carriers to manually
sort for delivery.




          Automated MPE                              F4 Clerks                           F2B City Carriers
                                                   Manually Casing                      Manually Casing Mail



The Postal Service is striving to increase DPS volume for all city delivery routes. On
average, since FY 2007, city routes have received approximately 82 percent of their
letters from the processing plants in DPS, with approximately 87 percent in DPS in FY
2008. (See Table 1.) Postal Service officials established a DPS goal of 85 percent for




4
  City delivery carriers “case” mail by manually sorting it into distribution slots in delivery sequence/carrier’s LOT.
They “pull down” mail by extracting it from the distribution slots and placing it into trays for delivery to street
addresses.
5
  The DBCS is the central component of the Postal Service’s letter automation program. Officials use the CSBCS in
smaller Postal Service facilities.




                                                           6
Management of Delivery Point Sequencing                                                                        DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

FY 2007 and 89 percent for FY 2008 in the NPA.6 The goal for FY 2009 is 90 percent
with an increase to 95 percent for 2010.7

                             Table 1. FY 2007 and 2008 Postal Areas’ DPS Percentages
                                                                 FY 2007            FY 2008
                                       Areas                   (Percentage)       (Percentage)
                          Capital Metro                                   80                 87
                          Eastern                                         82                 87
                          Great Lakes                                     81                 85
                          New York Metro                                  82                 85
                          Northeast                                       85                 88
                          Pacific                                         83                 89
                          Southeast                                       85                 90
                          Southwest                                       82                 85
                          Western                                         86                 89
                                 National Average                        82                      87
                                                    Source: E-Flash

For FYs 2007 and 2008, the Postal Service processed over 176 billion letter mailpieces
nationally, approximately 15 percent manually cased by carriers’ and 85 percent
through automation.

                     Table 2. Postal Service Letter Mail Processed in Pieces – Nationwide
                                                                                       Cased
    Fiscal     DPS Letters        Cased Letters        Total Letter       DPS         Letters
    Years       (Pieces)            (Pieces)            (Pieces)         Percent     (Percent)        Salary Expense    Workhours

    2007       75,493,975,468      15,750,336,560      91,244,312,028      82.8           17.2        $17,167,408,685   460,322,311

    2008       74,434,447,050      10,862,748,534      85,297,195,584      87.5           12.5         16,938,817,561   454,997,018
    Total     149,928,422,518      26,613,085,094    176,541,507,612       85.0           15.0        $34,106,226,246   915,319,329
                                                                                      8
                                   Source: E-Flash and Postal Service Field Budgets

Beginning in FY 2006, the Vice President, Delivery and Retail, officially implemented
Delivery SOP to manage all delivery and retail functions. These procedures were
reemphasized in FY 2008 with issuance of the Morning Standard Operating Procedures
(AMSOP) II Guidebook, Field Operations Standardization Development. The
procedures mandate that district officials create a DPS Improvement Team of functional
representatives who focus on specific issues affecting DPS percentages in delivery
units and document office visits and their results. At the unit level, officials must
develop plans to prioritize improvement opportunities and activities.

Area officials implemented several initiatives to enhance their ability to increase the
areas’ DPS mail percentage. The initiatives have been broad in scope, but focused on
specific results. The initiatives included continued area emphasis on and monitoring


6
  The Postal Service NPA is a web-based system that collects performance-related metrics. Officials translate these
metrics into web-based balanced scorecards they can use to monitor the performance of both the entire enterprise
and individual units across the nation. Officials did not establish a NPA until FY 2007.
7
  Per the 2006 - 2010 Strategic Transformation Plan, this goal is for city delivery carriers only.
8
  For Table 2 the DPS letters, cased letters, and DPS percentage were from E-Flash. The salary expense and
workhours were from FYs 2007 and 2008 Field Budgets.




                                                           7
Management of Delivery Point Sequencing                                                           DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

use of the SOP edit book, mail volume recording, cross-functional communication, and
station input and backflow processes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether management had adequately implemented
processes and key oversight controls to increase and sustain city delivery DPS
percentages and reduce operating costs.

We selected 13 districts for site visits because they had consistently low DPS
percentage averages for FYs 2007 and 2008 in the Postal Service areas. Within the
districts, we judgmentally selected 7 delivery units, 11 processing and distribution
centers (P&DCs), and one Delivery Distribution Center (DDC). We selected unit
locations based on similarities in the areas of DPS mail volume, type of facility, number
of city routes, and DPS quality percentages for FYs 2007 to 2008. We selected
processing and distribution facilities for site visits based on whether they processed mail
for the selected delivery units and whether they were co-located with district offices.
(See Table 3.)

                                      Table 3. Judgmentally Selected Site Locations
               Area                       Districts             Processing Facilities        Delivery Units
        Capital Metro             Capital                      Curseen-Morris P&DC      N/A
                                  Pittsburgh                   Pittsburgh P&DC          Grant Street Station
        Eastern
                                  Cincinnati                   Cincinnati P&DC          Mid-City Station
                                  Northern Illinois            Carol Stream P&DC        Winfield Post office
        Great Lakes
                                  Chicago                      Cardiss Collins P&DC     Loop Station
        Northeast                 Boston                       Boston P&DC              N/A
                                  New York                     Morgan P&DC              Grand Central Station
        New York Metro
                                  Triboro9                     --                       --
        Pacific                   Los Angeles                  Los Angeles P&DC         N/A
        Southeast                 South Florida                South Florida P&DC       N/A
                                  Dallas                       Dallas P&DC              Spring Valley Station
        Southwest
                                  Houston                      North Houston DDC        North Shepherd Station
        Western                   Colorado/Wyoming             Denver P&DC              N/A

To accomplish our objective, we:

           Conducted observations or interviews at 11 P&DCs and one DDC. We made
            site visits to seven delivery unit locations to evaluate the DPS process and
            determine what factors were contributing to low DPS percentages.

           Obtained DPS percentages from Web Enterprise Information System for all
            Postal Service areas for FYs 2007 through 2008 to identify high and low DPS
            percentages, cased letter volume, and DPS letter volume.


9
    We visited the Triboro District Office.




                                                           8
Management of Delivery Point Sequencing                                                             DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

        Reviewed 3M reports to determine whether unit officials were reporting and
         analyzing 3M data.

        Reviewed High-Rise Analysis reports from the DSMART to determine if unit
         officials were monitoring M-Records10 for possible removal of data from the
         Address Management System (AMS) sort plan.

        Reviewed DSMART to determine whether unit officials are entering business
         names for business delivery points into AMS.

        Reviewed Electronic Uncoded Address Resolution Service data to determine the
         number of unresolved records that contribute to inaccurate database information.

        Reviewed Daily Telecom and Customer Service Daily Reporting System reports
         to determine whether the unit officials were recording and reporting late arriving
         mail and non-DPS mail issues.

        Interviewed Postal Service officials at headquarters, nine postal areas, and
         selected district and unit locations to evaluate DPS percentages and determine
         the level of DPS oversight of city delivery.

        Reviewed best practices in the Southeast Area, South Florida District.

We conducted this performance audit from October 2008 through September 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.11 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials August 3 through 7, 2009, and included their
comments where appropriate. We relied on data obtained from Postal Service
database systems. We did not directly audit the systems, but performed a limited data
integrity review to support our data reliance.




10
   M-Records are used for extracting Multiple Point Deliveries from DPS mail, which may include multiple delivery
addresses on one record. Many times carriers request mail deliveries to be set as M-Records for their convenience.
Too many M-Records will reduce DPS percentages. For these reasons, M-Records should be evaluated before
entering SPS Station Input (SSI).
11
   We analyzed SOP requirements for DPS and reviewed those areas specific to delivery operations and applicable
to tasks and oversight to increase city delivery DPS percentages and reduce operating costs.




                                                         9
      Management of Delivery Point Sequencing                                                 DR-AR-09-010
       Percentage Increases for City Delivery –
       Nationwide Review

      PRIOR AUDIT COVERAGE

      The OIG has issued four reports related to our objectives.

                                                                  Monetary
    Report Title        Report Number        Final Report Date                           Report Results
                                                                   Impact
Delivery and Retail      DR-MA-07-003        February 22, 2007   No monetary    This report summarized a series
Standard Operating                                                 impact       of area reports identifying
Procedures —                                                                    opportunities to improve
National Capping                                                                implementation of the Postal
                                                                                Service’s Delivery and Retail
                                                                                SOP. We did not make
                                                                                recommendations in this report.
Address                  DR-AR-07-012         August 29, 2007     $26,902,945   This report summarized a series
Management System                                                               of area reports identifying
Information —                                                                   opportunities for area officials to
National Capping                                                                implement best management
                                                                                practices from the New York
                                                                                Metro Area’s New York District to
                                                                                improve the quality of AMS data
                                                                                to process and deliver the mail.
                                                                                Management agreed in principle
                                                                                with our area findings and
                                                                                recommendations.
Review of Postal         MS-AR-08-001        November 8, 2007    $103,400,000   This report identified that the
Service                                                                         Postal Service generally
First-Class Permit                                                              processes Permit Reply Mail
Reply Mail                                                                      mailpieces in accordance with
                                                                                approved classification and
                                                                                pricing procedures outlined in the
                                                                                Domestic Mail Manual (DMM).
                                                                                However, employees manually
                                                                                process approximately 70
                                                                                percent of the approved First-
                                                                                Class® two-way Digital Versatile
                                                                                Disc (DVD) return mailpieces
                                                                                from one DVD rental company
                                                                                because these mailpieces
                                                                                sustain damage, jam equipment,
                                                                                and cause mis-sorts during
                                                                                automated processing.
                                                                                Management was not responsive
                                                                                to the findings and
                                                                                recommendations because
                                                                                although they indicated
                                                                                agreement with the
                                                                                recommendations, they did not
                                                                                provide actions to address the
                                                                                recommendations nor did
                                                                                management provide action
                                                                                completion dates.




                                                        10
      Management of Delivery Point Sequencing                                                 DR-AR-09-010
       Percentage Increases for City Delivery –
       Nationwide Review

                                                                  Monetary
    Report Title        Report Number        Final Report Date                           Report Results
                                                                    Impact
Review of                DR-MA-08-005             July 28, 2008   $13,312,834   This report identified
Management of                                                                   opportunities for Atlanta District
Delivery Point                                                                  officials to improve
Sequencing                                                                      implementation of established
Percentages                                                                     processes and increase
Increases for City                                                              oversight to further increase its
Delivery —                                                                      DPS percentage and reduce
Southeast Area,                                                                 operating costs. Management
Atlanta District                                                                agreed with our
                                                                                recommendations.




                                                           11
Management of Delivery Point Sequencing                                                            DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

                               APPENDIX B: DETAILED ANALYSIS

Management of City Delivery DPS Percentages – Nationwide

Officials can further increase DPS percentages and reduce operating costs. Although
the DPS percentage for the nine Postal Service areas on average increased from 82
percent (FY 2007) to 87 percent (FY 2008) to 90.7 percent (third quarter, FY 2009),
management has not always implemented processes and provided oversight to further
improve percentages in districts nationwide. Our audit revealed the following required
more attention:

        Updating address databases in a timely manner
        Monitoring M-Records
        Resolving 3M data issues
        Handling non-DPS mail

Delays in Updating Business Delivery Points in DSMART

Delivery unit officials delayed updating address information in the DSMART – Business
Names,12 which contributed to low DPS percentages. In the 13 districts visited, our
review of address database information identified that officials delayed entering
business names associated with business delivery points into DSMART. This delay
resulted in over 23 million letter mailpieces not processed in DPS. (See Table 4.)




12
  DSMART is a web-based application that provides consolidated analysis of residual mail from DPS equipment
compared against business names for a delivery address. When a significant volume of mail is not matched with the
business names and address, the results are in a default assignment, which requires additional handling. The
“Business Names” feature allows delivery units to capture business names for identified problem addresses to
improve default mail and additional handling.




                                                       12
    Management of Delivery Point Sequencing                                                                    DR-AR-09-010
     Percentage Increases for City Delivery –
     Nationwide Review

                                   Table 4. DSMART Business Name Count Information
                                                        Business Name Count Report
                                                                        13
                                                               Active
                                                                                    Percent
                                                                                   Complete                             Average
                                                         Business Names             (Percent                          Days Count
                             Total         Total          (Count Of Total         Addresses                            (Average
                           Business        Active       Addresses With at        With Business                          Days to
                           Delivery       Delivery     Least One Business          Names in      Total Default Mail    Enter Into
                                                                                                             14
          District          Points         Points             Name)                DSMART)           Volume              AMS)
Capital                       37,366         25,050                     23,258       92.80                 696,207              626
Cincinnati                    43,008         28,864                     23,102       80.00                1,130,673             419
Pittsburgh                    26,787         19,557                     12,036       61.50                1,060,814             442
Chicago                       44,998         28,738                     17,994       62.60                2,237,400             371
Northern Illinois             57,246         36,817                     31,719       86.20                1,413,465             451
New York City                 88,040         71,461                     53,428       74.80                7,789,206             414
Triboro                       24,859         20,872                      7,362       35.30                1,417,590             720
Boston                        31,076         24,417                      7,203       29.50                1,939,439             543
Los Angeles                   79,238         52,988                     50,419       95.20                1,588,389             467
South Florida                 92,077         53,689                     53,090       98.90                1,393,924             555
Dallas                        89,710         61,700                     45,870       74.30                1,170,061             458
Houston                       72,084         49,712                     33,953       68.30                 531,703              432
Colorado/Wyoming              99,437         65,964                     32,081       48.60                1,607,380             363
    Totals/Average           785,926        539,829                  391,515                             23,976,251             482
                                            Source: National Customer Support Center


    Our review revealed officials in these districts took an average of 482 days to update
    the business names with addresses into DSMART. While there is no policy that
    specifically establishes a timeframe for updating DSMART, delays in updating DSMART
    data contribute to the following delivery operational issues pertaining to DPS letter mail:

               Incomplete matching of business delivery points to business names results in
                letter mail arriving at the units not processed in DPS.

               Clerks and carriers must manually case letters before street delivery.

    Officials stated there were delays in updating DSMART database information due to
    time spent performing other assigned duties such as administrative tasks and mail
    preparation. In districts with high default mail volume, such as the New York and

    13
       Active delivery points are addresses where mail is being received and is not in a vacant or no-stat status. Vacant
    indicates the delivery point was active in the past, but is currently vacant (in most cases unoccupied over 90 days)
    and not receiving mail delivery. “No-stat” is an indicator flag at the delivery point level set in the AMS to indicate no
    delivery, and the address is not to be counted as a possible delivery.
    14
       When business names are not included in DSMART for business delivery points the affected mail goes to the
    default high-rise mail bin because it cannot be sorted to the related delivery point. This report shows the amount of
    default mail over the last 12 months (from May 2008 to May 2009).




                                                                13
Management of Delivery Point Sequencing                                                                 DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

Chicago Districts, updated DSMART information is critical to increasing DPS
percentages due to the number of business delivery points in high-rise buildings.

As a best management practice, South Florida District officials review the status of
DSMART inputs during weekly teleconferences with delivery units to determine if
business names have been added to the system. The South Florida District has one of
the highest percentages (98.9) of business names entered into DSMART.

Inadequate Monitoring of M-Records

Officials did not consistently track and monitor M-Records or potential removal from the
AMS sort plan, which contributed to low DPS percentages. At the 13 districts visited,
our review of M-Records information identified that officials did not monitor M-Records
that could be removed from the sort plan,15 resulting in increased letter volume that
carriers must manually case. Our review of the FY 2008 mail volume data showed over
423 million letter mailpieces were not in DPS due to the M-Records not being reviewed
for possible removal. (See Table 5.) As a result, carriers manually sorted this mail to
the LOT because these mailpieces did not complete the DPS process, thus increased
operating costs.

Officials stated their primary focus was daily mail delivery operations and there is no
policy that specifically states a timeframe for reviewing M-Records. Our review of the
current policy confirms that officials are required to review and analyze M-Records for
DPS improvement opportunities; however, specified review timeframes were not
mandated. As a best management practice, the South Florida District allotted time
during weekly meetings to review M-records for possible removal. Further, district
officials invested time in educating delivery unit officials on the impact of M-Records on
DPS percentages.




15
   When a carrier makes a request to district officials to add an M-Record to AMS, it creates a default to remove mail
for a multi-point delivery without a secondary address from the DPS process. The Clerk and Carrier at the unit must
manually case this mail.




                                                          14
Management of Delivery Point Sequencing                                                                 DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

                                             Table 5: M-Record Mail Volume
                                                     Fiscal Year 2008
                                                                                                      Total Mail Volume
                                                 M-Records        Total Cased         DPS Mail         (Total Cased +
           Area                   District        Volume           Volumes            Volumes               DPS)
 Capital Metro          Capital                    17,401,125       131,163,126        923,085,135        1,054,248,261
 Eastern                Cincinnati                 20,922,003       198,046,873       1,265,557,185       1,463,604,058
 Eastern                Pittsburgh                 15,909,148       122,675,085        754,637,566          877,312,651
 Great Lakes            Chicago                    26,806,610       273,067,432       1,017,518,662       1,290,586,094
 Great Lakes            Northern Illinois          17,561,417       249,280,023       1,351,172,919       1,600,452,942
 New York Metro         New York City             107,052,907       385,609,912       1,073,812,830       1,459,422,742
 New York Metro         Triboro                    70,828,167       304,105,098       1,666,615,001       1,970,720,099
 Northeast              Boston                     11,742,893           78,649,698     748,603,455          827,253,153
 Pacific                Los Angeles                37,699,969       201,719,436       1,393,806,896       1,595,526,332
 Southeast              South Florida              15,143,437       154,995,432       1,606,196,682       1,761,192,114
 Southwest              Dallas                      6,607,212       160,023,604       1,177,363,164       1,337,386,768
 Southwest              Houston                    41,594,207       353,099,550       1,654,454,232       2,007,553,782

 Western                Colorado/Wyoming           34,249,288       215,670,524       1,460,349,147       1,676,019,671
           Total For 13 Districts Visited         423,518,383     2,828,105,793      16,093,172,874      18,921,278,667
                                                    Source: E-Flash

Resolving 3M Data

Officials reported 3M errors daily; however, they did not fully resolve problems, which
impacted the quality of DPS mail. These reoccurring 3M errors included mail sent to the
wrong office (mis-sent), placed on the wrong route (mis-sort), or put in the wrong walk
sequence order (mis-sequenced). Not resolving 3M errors requires clerks and carriers
to manually case mail.

At seven unit locations, our review of 3M daily reporting records identified that officials
were reporting 3M errors to district officials for corrective action; however, the problems
still existed. District officials16 did not analyze 3M data to identify and resolve the
reoccurring errors. Our review in the South Florida District indicated that officials
implemented best practices that included time allotted to review and resolve 3M issues
during weekly meetings, which resulted in a higher quality DPS.




16
 Functional representation from AMS, Operations Programs Support, In-Plant Support, Marketing, and Plant
Operations.




                                                           15
Management of Delivery Point Sequencing                                                                    DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

Non-DPS Mail Issues

Officials consistently reported receiving non-DPS mail from the plants as a factor
contributing to low DPS percentages. We observed receipt of non-DPS mailpieces at
seven delivery units to include mailpieces that were too thick and too slick for
processing on the automated equipment into DPS. Officials at the processing plants
used the Electronic Mail Improvement Reporting program to report problem mailpieces
the MPE could not process. Although plant officials reported problems with processing
non-DPS mail, they expressed concerns with the inability of district Marketing officials to
resolve the problems. Consequently, non-DPS mail remains in the mail stream, which
must be manually sorted.

During interviews with some Marketing officials, they stated they had taken action,17
however, in some cases, the Postal Service’s physical standards for machinable letters
limited the officials’ ability to require business mailers to make changes to their
mailpiece design.18 Our review in the South Florida District indicated that officials
implemented best practices that included continual discussions between the processing
plant and Marketing officials to identify and resolve issues with problem mailpieces. In
this district, plant and Marketing officials collaborated with a national business mailer to
modify the physical designs of promotional mailings to ensure the pieces would run on
the automated equipment. In addition, officials implemented policies that direct plant
officials to try processing all mail through DPS (including problem mailpieces) and
outlined required corrective action when all attempts have failed.

Establishing and Maintaining DPS Improvement Teams

District officials did not always establish and maintain DPS Improvement Teams to
monitor, review, and correct specific DPS issues. The Delivery SOP required formation
of teams to ensure cross-functional representation, communication, and oversight of
DPS mail issues. Our site reviews indicated that some officials had established a team
or variations of a team, but these teams did not include the required functional
representatives or documentation of office visits and results of efforts to increase DPS
percentages. (See Table 6.) Some of the established teams have been unsuccessful
in further increasing city delivery DPS percentages because officials could not maintain
staff accountability for DPS improvement efforts due to commitments to other assigned
administrative duties.

Our review in the South Florida District indicated that officials implemented best
practices that included establishment of a DPS Improvement Team with functional
representatives from AMS, Operations Programs Support, In-Plant Support, Marketing,
and Plant Operations. The team meets on a weekly basis to identify and resolve DPS


17
   At eight of 13 districts visited, Marketing officials stated they took action to resolve non-DPS mail issues but
standards limited their ability to correct mailpiece design problems.
18
   DMM, Section 201 - 1.1 Physical Standards for Machinable Letters and Cards.




                                                            16
          Management of Delivery Point Sequencing                                                         DR-AR-09-010
           Percentage Increases for City Delivery –
           Nationwide Review

          issues in underperforming units, with support from district management and
          accountability for corrective action associated with assigned tasks.

                                          Table 6. OIG Analysis of District Oversight
                                                                                                        Team
                                                                                        Team        Documented         Team Had
                                                                  Team Included     Documented        Corrective     Regular DPS
                                                      Variation      Adequate       Office Visits   Action Efforts   Improvement
                                          DPS         of a DPS      Functional       to Increase     to Increase         Team
     Area                District         Team         Team       Representatives   DPS Percent     DPS Percent        Meetings
Capital Metro      Capital                No            No             No               Yes             No               No
                   Pittsburgh             No            Yes            No               No              No               No
Eastern
                   Cincinnati             No            Yes            No               Yes             No               No
                   Northern Illinois      No            Yes            No               Yes             Yes              No
Great Lakes
                   Chicago                No            Yes            No               Yes             Yes              Yes
Northeast          Boston                 Yes           No             Yes              Yes             Yes              Yes
                   New York               No            No             No               No              No               No
New York Metro
                   Triboro                No            Yes            No               Yes             No               Yes
Pacific            Los Angeles            No            Yes            No               Yes             No               No
Southeast          South Florida          Yes           No             Yes              Yes             Yes              Yes
                   Dallas                 No            Yes            No               No              No               Yes
Southwest
                   Houston                Yes           No             Yes              No              No               Yes
Western            Colorado/Wyoming       Yes           No             Yes              Yes             Yes              Yes

          Impact

          As a result of these conditions, some clerks and carriers will continue to unnecessarily
          spend time manually sorting and casing letter mail. We estimate the additional labor
          costs to the districts for FYs 2007 and 2008 were $177,042,301, and will be
          $88,216,079 by the end of FY 2010. See Appendix C for our detailed analysis and
          calculation of the monetary impact.




                                                                  17
Management of Delivery Point Sequencing                                                          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

               APPENDIX C: OIG CALCULATION OF MONETARY IMPACT

We identified $177,042,301 in unrecoverable supported questioned costs for FYs 2007
and 2008 for unit distribution clerks and city carriers to manually case non-DPS mail.
We estimated the Postal Service could save $88,216,079 in funds put to better use over
the next 2 years by improving management oversight of operational issues that would
resolve specific DPS issues. When taken on a nationwide basis, this audit included all
nine Postal Service areas and 78 districts.19 We estimated the monetary impact by area
for 4 years (FYs 2007 through 2010). (See Table 7.)

                                 Table 7. Total Monetary Impact by Area20
                            Questioned    Questioned      Funds Put to    Funds Put to            Total
                              Costs          Costs         Better Use      Better Use           Monetary
              Area           FY 2007        FY 2008         FY 2009         FY 2010              Impact
     Capital Metro Area     $12,280,763     $4,130,264              $0               $0         $16,411,027
     Eastern Area            13,613,515      9,946,700       2,292,757       7,358,003           33,210,974
     Great Lakes Area        21,216,450     22,669,980       5,843,814      11,202,046           60,932,291
     New York Metro Area     17,930,410     19,865,448      12,319,069      14,207,113           64,322,040
     Northeast Area           1,729,431      1,971,556       1,581,623       7,539,687           12,822,297
     Pacific Area            13,807,183      2,441,782         199,774         943,581           17,392,321
     Southeast Area           1,385,199              0                0         233,157           1,618,356
     Southwest Area          11,784,292     15,562,873       8,122,566      15,331,648           50,801,379
     Western Area             3,985,520      2,720,934         399,549         641,693            7,747,696
            Totals           $97,732,764     $79,309,537      $30,759,151      $57,456,928    $265,258,380


Notes:
    We calculated unrecoverable supported questioned costs by comparing actual
       cased and DPS letter mail volumes for FYs 2007 and 2008 to the expected
       volumes for those years. We multiplied the difference between the actual and
       expected volumes by the related annual overtime rate for unit distribution clerks
       and city carriers.

        We calculated funds put to better use by comparing the forecasted cased and
         DPS letter mail volumes for FYs 2009 and 2010 to the expected volumes for
         those years. We multiplied the difference between the actual and expected
         volumes by the related annual overtime rate for clerks and city carriers.

        The escalation factor from FYs 2007 to 2008 for city letter carriers is 60 cents.
         The escalation factor from FYs 2007 to 2008 for unit distribution clerks is 90
         cents.

        The escalation factor from FYs 2008 to 2009 for City Letter Carriers is $1.61.
         The escalation factor from FYs 2008 to 2009 for unit distribution clerks is $1.26.


19
  We excluded the Atlanta and Caribbean Districts from our review.
20
  The Postal Service areas’ national DPS percentage on average has increased from 82 percent (FY 2007) to 87
percent (FY 2008) to 90.7 percent (third quarter of FY 2009).




                                                      18
Management of Delivery Point Sequencing                                        DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review


       The escalation factor from FYs 2009 to 2010 for City Letter Carriers is $1.07.
        The escalation factor from FYs 2009 to 2010 for unit distribution clerks is 73
        cents.

       Escalation factors are based on the Postal Service’s National Average Labor
        Rates Table FYs 2007 and 2008 Actual and FYs 2009 and 2010 Projections.




                                            19
Management of Delivery Point Sequencing                    DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review

                       APPENDIX D: MANAGEMENT’S COMMENTS




                                            20
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            21
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            22
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            23
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            24
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            25
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            26
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            27
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            28
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            29
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            30
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            31
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            32
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            33
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            34
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            35
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            36
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            37
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            38
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            39
Management of Delivery Point Sequencing          DR-AR-09-010
 Percentage Increases for City Delivery –
 Nationwide Review




                                            40
